March 14, 2005


MEMORANDUM
FOR:          USAID/Afghanistan Director, Patrick C. Fine

FROM:         RIG/Manila, John M. Phee /s/

SUBJECT:      Audit of USAID/Afghanistan’s School and Clinic Reconstruction
              Program (Report No. 5-306-05-003-P)

This memorandum transmits our final report on the subject audit. We reviewed your
comments to the draft report, made revisions where appropriate based on them, and
included the comments in their entirety as Appendix II.

This report includes three recommendations. Based on your comments, management
decisions have been reached on all three recommendations. USAID/Afghanistan should
coordinate final actions on these recommendations with USAID’s Office of Management
Planning and Innovation.

I want to thank you and your staff for the cooperation and courtesy extended to us
during the audit.




                                                                                      1
(This page intentionally left blank.)




                                        2
Table of
Contents
           Summary of Results                                            5

           Background                                                    5

           Audit Objective                                               7

           Audit Findings                                                7

                 Reconstruction Activities Were Not on Schedule          7

                 Reporting of Construction Progress Needs Improvement   11

           Evaluation of Management Comments                            12

           Appendix I – Scope and Methodology                           14

           Appendix II – Management Comments                            17




                                                                         3
(This page intentionally left blank.)




                                        4
Summary of   As part of its revised fiscal year 2004 audit plan, the Regional Inspector
Results      General/Manila performed this audit to determine whether USAID/Afghanistan’s
             school and clinic reconstruction activities were on schedule to achieve planned
             outputs (see page 7).

             At the conclusion of audit fieldwork on October 31, 2004, USAID/Afghanistan’s
             school and clinic reconstruction activities were not on schedule to achieve planned
             outputs. No more than 328 (62 percent) of the 533 buildings planned to be
             completed by December 2004 were completed or on schedule to be completed by
             then. The Mission is implementing measures to address the impediments it has
             control over that have contributed to it not achieving planned outputs. In addition,
             the Mission is studying a number of alternative implementation methods to apply to
             what remains of the current program. To ensure that corrective actions are taken, we
             are recommending that USAID/Afghanistan finalize an alternative plan with
             timeframes for completing its school and clinic reconstruction program (see pages 7
             to 11). In addition, because the Mission's internal controls do not ensure that its
             implementing partners are accurately reporting construction progress, we are
             recommending appropriate corrective actions (see pages 11 and 12).

             USAID/Afghanistan agreed with the three recommendations in this report, and
             management decisions have been reached on all three (see pages 12 and 13). The
             Mission’s comments are included as Appendix II to this report (see page 17).


Background   On September 30, 2002, USAID awarded a contract to Louis Berger Group, Inc.,
             (LBGI) to implement infrastructure reconstruction activities in Afghanistan under
             the Rehabilitation of Economic Facilities and Services Program. The program’s
             purpose is to promote economic recovery and political stability by rehabilitating and
             repairing infrastructure. One of the components of the program, and of the LBGI
             contract, was the reconstruction of schools and health clinics. The contract initially
             tasked LBGI to complete up to 40, 140, and 240 school and health clinic buildings
             cumulatively in calendar years 2003, 2004, and 2005, respectively.

             However, by mid-2003, expectations by USAID for a significantly higher number of
             building completions became apparent—for example, approximately 1,000
             completed by the end of calendar year 2004, and there was mounting urgency from
             Washington to demonstrate on-the-ground progress because none had yet been
             achieved. To address the expectations and urgency, a number of construction
             methods were analyzed by LBGI and considered by USAID/Afghanistan, including
             mass producing pre-fabricated schools and clinics—a method LBGI believed would
             result in about 1,200 new facilities by the end of 2005. However, USAID opposed
             the pre-fabrication method because it was too costly and it did not involve Afghan
             construction firms—a development objective of the school and clinic reconstruction
             program. Therefore, in late 2003, LBGI abandoned the pre-fabrication method and
             awarded subcontracts to Afghan construction firms to build the schools and clinics.

                                                                                                 5
Later, in January-February 2004, the Mission reconsidered using the pre-fabrication
method for about 400 new schools and clinics because of a new directive—the
“Accelerated Success Program”—to the Mission from the Deputies Committee for
Afghanistan (Deputies Committee), led by the National Security Council. This
directive required USAID/Afghanistan to complete a significant number of buildings
by June 2004.

In March 2004, because the Mission had sole-source contracting concerns with the
pre-fabrication method and because it was not pleased with the pace of LBGI’s
progress on the 105 schools and clinics the contractor had begun in 2003, the
Mission removed all but the 105 buildings from LBGI’s contract.

In May 2004, the Mission entered into cooperative agreements with five
International Nongovernmental Organizations (INGOs) to build more schools and
clinics; these INGOs then subcontracted the construction to Afghan firms. The
Mission also found it necessary to revise its building-completion schedule from the
June 2004 target date established by the Deputies Committee to September 2004.

In July 2004, the Mission again found it necessary to revise its building-completion
schedule to the end of calendar year 2004, which it did in a cable to the Deputies
Committee.

The following table shows the estimated costs to complete the current program,
by implementing partner, as of October 31, 2004.

                  Table 1: Estimated Costs to Complete the
               School and Health Clinic Reconstruction Program
                           (As of October 31, 2004)

                                                                             Estimated
                       Implementing Partner                                    Costs
                                                                           (000 omitted)
 Cooperative Housing Foundation International (CHF)                               $11,689
 International Organization for Migration (IOM)                                    18,584
 Louis Berger Group, Inc. (LBGI)                                                   23,837
 Shelter for Life International (SFL)                                               7,595
 United Methodist Committee on Relief (UMCOR)                                       4,643
 United Nations Office for Project Services (UNOPS)                                 6,888
                              Total                                               $73,236

For all implementing partners except LBGI, the estimated costs were based on obligations as of
October 31, 2004. For LBGI, estimated costs were based on contract modification no. 18, which
was being finalized in December 2004.




                                                                                            6
Audit            As part of its revised fiscal year 2004 audit plan, the Regional Inspector
Objective        General/Manila (RIG/M) performed this audit to answer the following question:

                 •   Were USAID/Afghanistan’s school and clinic reconstruction activities on
                     schedule to achieve planned outputs?

                 Appendix I contains a discussion of the audit's scope and methodology.



Audit Findings   USAID/Afghanistan’s school and clinic reconstruction activities were not on
                 schedule to achieve planned outputs.

                 Reconstruction Activities Were Not on Schedule

                 Summary: On July 25, 2004, USAID/Afghanistan submitted to the Deputies
                 Committee for Afghanistan a schedule for completing 533 schools and clinics by
                 the end of December 2004. However, at the conclusion of audit fieldwork on
                 October 31, 2004, no more than 328 buildings were completed or on schedule to
                 be completed by the end of December 2004. Several factors contributed to not
                 achieving the planned outputs, including overly optimistic implementation
                 expectations, building design changes, unfamiliarity of the local labor force with
                 construction specifications, security threats and incidents, and insufficient
                 oversight and monitoring. As a result, only about half of the 1,000 buildings once
                 envisioned as being completed by the end of 2004 will actually be completed, and
                 it will take at least until August 2005 to complete the reduced number.

                 From its inception in 2002, USAID/Afghanistan’s school and clinic
                 reconstruction program has been slow in producing tangible results. In January
                 2004, however, a new sense of urgency was injected into the program when the
                 Deputies Committee for Afghanistan (Deputies Committee) directed that
                 significant tangible results had to be achieved by June 2004. However, the
                 Mission recognized then—and again in May when it revised its schedule for
                 completing the construction of schools and clinics from June 2004 to September
                 2004—that it could not achieve the milestones.

                 In July 2004, after the USAID Administrator reported to the Deputies Committee
                 on the progress of the school and clinic reconstruction program, the Committee
                 chair directed USAID/Afghanistan to prepare and submit a third revised schedule
                 for completing the program’s construction activities. In response to that directive,
                 in cable number 2307 dated July 25, 2004, the Mission submitted its schedule:
                 533 schools and clinics to be completed by the end of December 2004, 300 of
                 which would be completed by the end of October 2004. This time, the schedule
                 was the Mission’s commitment—the planned outputs it believed it could achieve.

                                                                                                   7
However, as shown in Table 2 below, program activities were well behind
schedule. For example, at the conclusion of audit fieldwork on October 31, 2004,
only 91 (30 percent) of the 300 schools and clinics were completed by then.1
Additionally, no more than 328 (62 percent) of the 533 were anticipated to be
completed by the end of the calendar year.2 Further, Mission officials now
estimate all 533 schools and clinics will not be completed at least until August 2005.

               Table 2: School & Health Clinic Reconstruction Progress
                                By Implementing Partner
                               (As of October 31, 2004)

      Impl.       Number of        Number         Number on           Total          Percent
     Partner      Buildings       Completed        Schedule        Completed       Completed
                    To be          To Date          To be             or on           or on
                  Completed                       Completed         Schedule        Schedule
                      by                              by
                   12/31/04                        12/31/04
    CHF                59               3               0                3               5
    IOM               215              54              64              118              55
    LBGI              105              15              74               89              85
    SFL                57               0              46               46              81
    UMCOR              24               0              15               15              63
    UNOPS              73              19              38               57              78
      Total          533               91            237               328              62

The Mission’s commitment to construct 533 buildings (cable no. 2307, dated July 25, 2004) was
not broken down by implementing partner; however, the OIG was able to obtain numbers for each
implementing partner (which totaled 533) during the audit.

There were several reasons why the program was well behind schedule:

•     Overly optimistic expectations by the Mission, given that insufficient human
      resources were available to both plan and implement the program.

•     Inadequate capabilities of the Transitional Islamic State of Afghanistan
      (TISA) Ministries of Education and Health and delays in site selections and
      verifications due to invalid master lists provided by them.

•     Building design changes and approvals, involving the Mission, its
      implementing partners, and the TISA.
•     Unfamiliarity of the local labor force with construction practices.



1
    Most of the 91 were refurbishments as opposed to new buildings.
2
    The 328 figure was based on implementing partners’ projections developed in late October 2004.

                                                                                                8
•   Factors outside the control of the Mission: security threats and incidents as
    well as weather restrictions.

•   Insufficient oversight and monitoring by the Mission and its implementing
    partners.

Because of the above impediments, the program will construct substantially fewer
buildings and take longer to do so. At one time, USAID/Afghanistan envisioned
building or reconstructing about 1,000 schools and clinics by the end of calendar
year 2004. Now, only 533 are planned and it will take until August 2005 to
complete them.




       Photograph of the construction of an eight-classroom school taken on October
       14, 2004 at Karabagh, Province of Kabul.

The Mission recognized that something needed to be done and it had implemented
measures to address those impediments over which it has control. For example:

•   Prior to the May to June 2004 timeframe, the Mission was only able to
    provide very limited resources for oversight and monitoring of the program.
    But since then, through a technical support contractor, it now has 29
    professional staff, most of whom are Afghan engineers working out of four
    regional offices throughout the country. These Afghan engineers now
    conduct site inspections not only in the more secure areas of the country, but
    also in the more dangerous areas and in the areas that are difficult to reach.

•   The Mission has worked to build the capacity of the TISA Ministries of
    Education and Health by embedding Mission-hired staff in those ministries.


                                                                                      9
    Among other things, the embedded staffers have helped the ministries
    improve their process of identifying and verifying sites for schools and clinics.

•   The Mission was scheduling training for the local labor force, as well as to
    supervisors, on construction and oversight practices. This training was to
    occur during the winter months for those contractors who needed to shut down
    construction sites during that period.

In addition to the above—recognizing that the school and clinic program has not
been successful in constructing a significant number of buildings in a short
timeframe—the Mission was studying a number of alternative methods to apply
to what remains of the program and possibly to any future program of this type. It
believed that any change in methodology would need to include substantially
improving the TISA ministries’ capabilities to contract for and manage
construction projects. The alternative methods that the Mission was studying
were:

•   Allowing implementing partners to complete the buildings already started.

•   Discontinuing plans to construct the remaining buildings that have not yet
    been started.

•   Transferring responsibility for those remaining buildings to the U.S. Army
    Corps of Engineers (USACE).

•   Building the capacity of the two TISA ministries to manage the construction
    of all remaining buildings and any future school and clinic reconstruction
    programs.

•   Having the Mission or USACE act as fiduciary agent for any transfer of
    construction responsibilities to the two TISA ministries.

The Mission was adequately addressing the issues related to site selections and
verifications, the local labor force, and monitoring. At the time of our audit
fieldwork, building design changes and approvals were no longer an issue.
Further, the Mission cannot control security threats or the weather. For example,
the security situation in Afghanistan was adversely affecting the implementing
partners’ ability to consistently maintain construction time schedules. However,
we believe that, given the history of the program and the overly optimistic
expectations, the Mission needs a new and realistic approach to the school and
clinic reconstruction program—one which includes enabling the TISA ministries’
to contract for and manage construction projects. Therefore, we are making the
following recommendation:




                                                                                  10
       Recommendation No. 1:               We recommend that
       USAID/Afghanistan finalize an alternative implementation
       plan with timeframes for the uncompleted portion of its school
       and clinic reconstruction program. The plan should include
       measures to strengthen the capabilities of the Transitional
       Islamic State of Afghanistan’s Ministries of Education and
       Health to contract for and manage construction projects.

During our review of the Mission’s internal controls related to the audit objective,
we identified the following area for improvement in those controls.

Reporting of Construction Progress Needs Improvement

The Government Accountability Office’s (GAO) “Standards for Internal Control
in the Federal Government” (November 1999) requires that management units
install control systems to ensure that reliable data is available and reported in
order that decisions can be made to help carry out management directives and
ensure management objectives are achieved.

To its credit, the Mission had recently developed extensive computerized
databases to monitor its school and clinic reconstruction program. The Mission
maintained one data base that served as its primary tool for identifying, tracking,
and assessing construction progress. The Mission’s database provided, among
other data, the following for each school and clinic project:

•   Unique identifying number.

•   Name of USAID’s implementing partner and its subcontractor.

•   Province and district location.

•   Exact mapping location coordinates.

•   Date construction commenced.

•   Planned completion date.

International Relief and Development Inc. (IRD), the Mission’s technical support
contractor, also maintained a database that contained detailed information on the
monitoring and site inspections that its staff conducted.

Key data in both the Mission’s database and IRD’s database were the percents of
completion for schools and clinics under construction.

However, we found that the percents of completion in the Mission’s database—
the database that the Mission was using to track and assess construction

                                                                                 11
                progress—were not reliable.         The percents of completion came from
                implementing partners’ bi-weekly progress reports, and those progress reports
                were generally overstated. According to IRD officials involved with site
                inspections, their assessments of the percents of completion for schools and
                clinics were invariably 20 to 25 percent less than what the implementing partners
                were reporting.

                Implementing partners were overstating progress, in part, because they were using
                different methods for calculating the percents of completion for their respective
                schools and clinics. They were using different methods because they were not
                given a standard method to use in their calculations, even though IRD had
                developed one to use in its own assessments of construction progress. Further,
                although the more realistic percents of completion were available, they were not
                merged into the Mission’s own database because procedures for the use of IRD’s
                assessments were still in the early stage of development.

                As a result, the Mission’s database continually produced overly optimistic
                expectations on schools and clinic completions because completion dates were
                based on overstated percents of completion for construction in progress.
                Therefore, we are making the following recommendations:

                       Recommendation No. 2:                We recommend that
                       USAID/Afghanistan require that all its school and clinic
                       implementing partners and their subcontractors use
                       International Relief and Development Incorporated’s method
                       for calculating the percent of completion for a school or clinic.

                       Recommendation No. 3:               We recommend that
                       USAID/Afghanistan regularly merge the percent of completion
                       data for each school and clinic from International Relief and
                       Development Incorporated’s database into its own database to
                       use as a tool for assessing the accuracy of the percent of
                       completion data reported by implementing partners.



Evaluation of   USAID/Afghanistan provided written comments to our draft report that are
Management      included in their entirety as Appendix II. In its comments, USAID/Afghanistan
                was in full agreement with the report’s three recommendations and stated they
Comments
                had already been highly useful for their deliberation and improvement of program
                activities.

                For Recommendation No. 1, USAID/Afghanistan stated that it had presented an
                acceptable alternative implementation plan to the U.S. Ambassador to
                Afghanistan which resulted in a targeted completion date of August 31, 2005 for
                the schools and clinics reconstruction program. In addition, the Mission stated


                                                                                              12
that it has already begun implementing a number of improvements in the program
in order to strengthen the TISA Ministries of Education and Health to contract for
and manage construction projects.

For Recommendation No. 2, the Mission stated that, in coordination with IRD and
USACE, it has developed a formula (currently undergoing field testing) to
determine the percent of completion for new construction projects. The Mission
was also developing a variation of that formula to apply to refurbishment projects.
The Mission plans to make the use of these formulas, once fully tested, mandatory
by all implementing partners to report construction progress of their projects.

For Recommendation No. 3, the Mission stated that once corrective actions were
completed for Recommendation No. 2, it would merge percent of completion data
derived from its inspection monitoring visits with percent of completion data
reported by its implementing partners. In addition, the Mission plans to resolve
on a bi-weekly basis any differences in percent of completion through dialogue or
joint evaluation and also to provide recommendations to its implementers to
maintain optimal progress towards construction goals.

Based on the above actions taken or planned by the Mission, we consider that a
management decision has been reached on all three recommendations.




                                                                                13
                                                                                                 Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General/Manila conducted this audit in accordance with
              generally accepted government auditing standards. The purpose of the audit was
              to determine whether USAID/Afghanistan’s school and clinic reconstruction
              activities are on schedule to achieve planned outputs.

              The audit covered the Mission’s school and clinic reconstruction activities carried
              out by six implementing partners, identified on page 6 of this report, and their
              subcontractors for the period from September 30, 2002 through October 31, 2004.
              The audit covered obligations totaling $73.2 million as of October 31, 2004.3 The
              audit fieldwork was performed from October 14 to November 2, 2004 at
              USAID/Afghanistan offices, the Kabul offices of the six implementing partners,
              and at various construction sites located in the Kabul, Logar, and Paktiya
              provinces of Afghanistan.

              In planning and performing the audit, we reviewed and assessed the Mission’s
              internal controls related to ensuring that activities were on schedule to achieve
              planned outputs. Specifically, we assessed controls related to whether the
              Mission: (1) conducted site inspection visits to evaluate progress; (2) maintained
              reliable progress data; and (3) accurately reported progress to the Deputies
              Committee for Afghanistan (Deputies Committee). We also reviewed the
              Mission’s self-assessment prepared in compliance with the Federal Managers
              Financial Integrity Act for fiscal year 2004 for those management controls
              relative to the audit objective.

              Methodology

              To answer the audit objective, we interviewed officials of USAID/Afghanistan, its
              six implementing partners, and International Relief and Development Inc., a
              Mission contractor involved in program oversight and monitoring. In addition,
              we reviewed and analyzed the relevant documentation and processes of these
              entities and inspected 12 construction projects: 2 schools under construction, 1
              completed health clinic, and 9 health clinics under construction. In consultation
              with the Mission, the 12 construction sites were judgmentally selected taking into
              consideration the security restrictions imposed by the U.S. Embassy. The
              documentation and processes reviewed included those related to the (a) program’s
              financing and to construction progress and achievement of planned outputs (such
              as implementation schedules and projections for building completions by October
              and December 2004 and for August 2005) and (b) reporting of actual performance


              3
                This amount included, for one implementing partner, a contract modification that was being
              finalized in December 2004.

                                                                                                             14
results by the implementing partners to the Mission and by the Mission to the
Deputies Committee.

We answered the audit objective as an unqualified, qualified, or adverse opinion
using parameters applied to the school and clinic completion schedule cabled to
the Deputies Committee on July 25, 2004. The parameters were as follows:

•   The opinion would be unqualified if 90 percent of the planned schools and
    clinics were completed or on schedule to be completed by December 31,
    2004.

•   The opinion would be qualified if less than 90 but not less than 70 percent of
    the planned schools and clinics were completed or on schedule to be
    completed by December 31, 2004.

•   The opinion would be adverse if less than 70 percent of the schools and clinics
    were completed or on schedule to be completed by December 31, 2004.




                                                                                15
(This page intentionally left blank.)




                                        16
                                                                                             Appendix II


Management
Comments



              USAID AFGHANISTAN
              FROM THE AMERICAN PEOPLE




February 24, 2005

Mr. John M. Phee
Regional Inspector General
RIG/Manila
Manila, Philippines

        Re:    Audit of USAID Afghanistan Schools and Clinics Reconstruction Program (Report
        No. 5-306-05-00X-P)

Dear Mr. Phee:

The Mission is writing this letter in response to your draft report on the Schools and Clinics Program
under USAID Afghanistan.

We appreciate the constructive nature of the visit of the RIG/Manila staff and the thoroughness of your
report. Over the past 4 months, we have used many of the “exit report findings” and other “lessons
learned” from our internal evaluations to make necessary improvements to this program. Several of
these will be outlined, below, in answer to the three recommendations of your report.

1.    Recommendation No. 1: We recommend that USAID/Afghanistan finalize an alternative
     implementation plan with timeframes for the uncompleted portion of its school and clinic
     reconstruction program. The plan should include measures to strengthen the capabilities of
     the Transitional Islamic State of Afghanistan’s Ministries of Education and Health to contract
     for and manage construction projects.

1.1 The Mission is in full agreement with this recommendation.

1.2 Alternative Implementation Plan: In response to the collaborative work and findings of the Mission
    and the RIG/Manila Team, the Mission presented an alternative implementation plan and revised
    schedule to the Ambassador, which was accepted, at a special meeting on schools and clinics on
    November 24, 2004. That meeting highlighted the following: Program Progress against Targets;
    Findings of the Mission Program Evaluation and the preliminary findings of the Operational Audit
    by the Regional Inspector General; Corrective Actions Undertaken; and Major Continuing

                                                                                                         17
    Challenges. As a result of this Mission analysis and discussion, which included the reasons for
    delays outlined in audit, the completion date for the schools and clinics program was targeted to
    August 31, 2005.

1.3 Plan to Strengthen the Management Capabilities of the Ministry of Health (MOH) and Ministry of
    Education (MOE): Basic steps to improve the capacity of the MOE/MOH to manage the
    construction projects are currently underway, primarily through on-the-job training by the 34
    monitoring and evaluation engineers hired through a USAID contract with IRD. IRD staff (and
    REACH engineering staff) are embedded within the contract/engineering departments of the
    Ministry of Health and Ministry of Education and are providing hour to hour assistance to the
    engineering staff of the MOH. Formal training has also been provided to TISA staff members, to
    include attendance and certification of ministry personnel at the recent Acquisition and Assistance
    Management Courses for CTOs held in Kabul in January 2005. In addition, the capacity
    development includes field management training, as officials from the MOE/MOH accompany each
    site visit by IRD and USAID engineering staff, to include multiple progress/quality assessments
    during the planning/construction cycle and development of the final “punch list” for
    completion/acceptance.

1.4 Plan to Strengthen the Contracting Capabilities of the Ministry of Health (MOH) and Ministry of
    Education (MOE): Although the Mission is in full agreement with the need to assist the
    MOH/MOE with contracting capacity for construction activities, the Mission will be funding this
    activity from the current IRD/REACH contracts and future construction programs. The Mission is
    in the process of identifying technical assistance from IRD to embed in the MOH/MOE to assure
    USAID standards of contract performance. Through an additional source of USAID funding for
    schools and clinics, the Mission is also in the final stages of identifying approximately 5 to 10 sites
    for the MOH and the MOE to plan, contract, manage and monitor the construction activities, in
    collaboration with the embedded USAID technical/contract/financial advisors.


2. Recommendation No. 2: We recommend that USAID/Afghanistan require that all its
   school and clinic implementing partners and their subcontractors use International
   Relief and Development Incorporated’s (IRD) method for calculating the percent of
   completion for a school or clinic.

We are in full agreement with Recommendation 2.

The Mission, in coordination with IRD and the staff member of the Army Corps of Engineers assigned
specifically to USAID for the School and Clinic Reconstruction Program, have put together a formula to
determine the percent completion and it is currently being field tested and utilized by the IRD and
MOE/MOH field monitoring staff.

As differentiated from new sites, the Mission is also working on a completion schedule for
refurbishment projects. This is not so straight forward since each site has very different work items and
the status of the “old” facility is highly variable. Our current thoughts are to take the percentages
assigned to each activity in new construction methodology and factor them according to the aggregate
tasks to be completed in the refurbishments.


                                                                                                          18
Once tested and revised, the methodology and results of the testing (for the new and the refurbished
completion calculations) will be given to each implementing partner for mandatory usage in reporting
and payment of subcontractors. From time to time, there may be disagreement over the percent
completed as calculated by the contractor and the USAID/IRD/MOH/MOE monitoring teams. Such
differences will be presented by the contractor in the bi-weekly report to USAID and these differences
will be arbitrated or result in a joint site visit for reassessment by all involved parties.

This standardization of completion methodologies should: assist in a more optimal method for
calculating the percentage of completion; better predict the delivery date of the site from the contractor
to the MOH/MOE; facilitate more prompt and equitable payment to the subcontractors, as well as;
provide data reporting formats and information which can be more easily interpreted by field and office
staff of all parties.

3. Recommendation No. 3: We recommend that USAID/Afghanistan regularly merge the
   percent of completion data for each school and clinic from International Relief and
   Development Incorporated’s database into its own database to use as a tool for assessing the
   accuracy of the percent of completion data reported by implementing partners.

As outlined above, USAID’s contractor (IRD) is in the process of developing and field testing optimal
methodologies for determining and harmonizing the percent completion calculations through field
testing. As these methods are refined and systematized, the methodology will be shared and
implemented by all contractors and cooperating agencies. With regard to data base incorporation,
USAID plans to create additional columns in our existing Master Lists database for schools and clinics
to report the completion percentage from the IRD/USAID/MOH/MOE monitoring activities and the
implementers. The dates and percent completion data from the monitoring programs of the
IRD/USAID/MOH/MOE teams and the implementer will be entered into the respective Master Lists
entry fields. These Master Lists and their special reporting sub-documents will be shared between all
appropriate interested parties (IRD/USAID/MOH/MOE and specific implementers) and differences in
data will be resolved through dialogue or joint evaluation. With data confirmation, construction
progress against goals will be reviewed on a bi-weekly basis and recommendations for maintaining
optimal progress will be developed for the action of the implementers.

These three recommendations have already been highly useful for our deliberation and improvement of
program activities.

The Mission is also attaching to this letter several suggested “highlighted” editorial changes for your
deliberation and possible inclusion in the text of the final report. (See Attachment A, Draft Audit Report
with highlighted text).

The Mission is very appreciative of the field work of the Audit Team, which was highly professional
and provided dialogue, which was valued by our many partners and our USAID staff. We look forward
to your final findings, report and recommendations.




                                                                                                         19
Sincerely,

/s/
Patrick C. Fine
Director, USAID Afghanistan




Attachments: Attachment A, Draft Audit Report with highlighted text




CC:    Amanda Levenson, Controller
       James Athanas, Contract Officer
       James E. Sarn, CTO
       LTC Scott E. Short, USAID Afghanistan, OIEE Director
       Mr. Greg Schaefer, USAID Afghanistan, OIEE Vertical Structures Program Manager




                                                                                        20
